                  United States D epartment of the Interior
                             OFFICE OF INSPECTOR GEN ERAL
                                  Washington. D C 20240

                                                                      AUG 2 0 2f.JIJ7




To:              Secretary Kempthome

From:            Earl E. Devaney
                 Inspector General
                                        [oJL~
Subject:         Critical Point Evaluation - National Park Service Centenni      . . lve

        We were pleased to have the opportunity to brief you on the Office ofInspector
General (OIG) Critical Point Evaluation (CPE) of the National Park Service (NPS)
Centenniallnitiative (eI), and were heartened to hear your continuing support of OUf
early involvement in this effort. During that briefing. we identified two areas of
particular import - the establishment of a Centennial Independent Review Board (ClRB )
and the development of a Business Plan to implement the Centennial Initiati ve. We
discuss each of these in more detail, below.

        Subsequent to our meeting with you, we briefed the NPS Director and members
of her CI te~ all of whom were both interested in and receptive to the ideas we
presented. In addition to copying them on this memorandum, we will continue to provide
assistance to the NPS Centennial Team regarding the CIRB and Business Plan, as well as
in other areas, as needed.

Centennial Independent Review Board

       We envision the CIRB as being an autonomous advisory body to the NPS
Director and you in the following essential areas:

      .. Independent review and approval of requests for distribution of all federal CI
         Funds to "matching" funds from the private sectOT.
      .. Oversight of the internal controls over CI projects.
      • Adjudicate the value of potential in-kind donations.

       Members of the CIRB should have substantial background and expertise in
finance and/oT organizational management. The members should be drawn from
government, business and/or private philanthropic organizations. We recommend that the
CIRB be structured as follows:
       1 - Rotating FoundationlFriends Group Member (2-year term)
       2 - Standing NPS Members
       1 - Standing Department of the Interior Member
       1 - Independent Member from the business and/or philanthropic community
       1 - Non-voting, advisory Member from the OIG

        The CIRB should meet on a regular basis, at least quarterly, to address issues on
pending CI projects and donations. One of the standing, voting members should be
designated as Chair to manage the CIRB's operations and records. Administrative
support for the CIRB should be provided by NPS. The CIRB should receive information
in advance of each meeting in a standard format, that contains all the details about any
pending CI project necessary for the Board's meaningful consideration. Appropriate
NPS officials and partner project sponsors who are knowledgeable about pending CI
projects should be available to the Board at every meeting, to answer questions as they
anse.

        The CIRB, in turn, should produce concise written summaries of its reviews,
including issues and concerns that stakeholders may overlook, to ensure transparency and
consistency. Although non-binding, such summaries would become a part of the record
for a given CI project.

Elements of a Business Plan

         Following the NPS Centennial Initiative Strategic Plan, a detailed. Business Plan
must be developed. to ensure that the necessary business processes are in place to
successfully implement the CI. The Business Plan must detail individual responsibilities,
procedures, time frames and resources necessary to accomplish identified goals.
Although the Business Plan may include other areas, we have identified the following as
crucial:

    .. Organizational Structure and Processes
          o Overall management of CI program
          o Structure - centralized/decentralized
          o Process to obtain organizational buy-in
          o Roles and responsibilities of CI project partners
          o Process for approval of projects
          o Mechanism to ensure completion of projects
          o Role and responsibilities of CIRB

    .. Financial Management
           o Establish CI financial management systems requirements (FBMS, FFS,
               Foundation Based?)
           o Establish internal controls over release of matching funds
           o Develop capacity for prompt, accurate financial reports (daily, weekly.
           o monthly. and quarterly?)
           o Establish a prompt, accurate mechanism to track funding


                                             2
         Human Resources Management
            o Determine necessary staffing to handle increased demand for contracting,
               legal support, training and other areas
            o Staff location - centralized/decentralized
            o Develop interim human capital strategy to assign existing employees to CI
               projects, including impact on other programs
            o Develop human capital strategy to recruit, hire and train new employees
            o Determine funding sources for new hires

      • Training
           o Develop a CI training curriculum
           o Develop a delivery strategy
           o Establish partners' role in training effort

        Program Metrics and Feedback
            o    Establish perfonnance measures tied to the Strategic Plan and Goals
            o    Develop processes to collect and compile predominance data for reporting
            o    Develop an internal control review program and establish frequency of
                 such reviews

       At this time, I have asked the OIG ePE team to step back and give NPS an
opportunity to establish the CIRB structure and develop its Business Plan. In Fiscal Year
2008, we will initiate another CPE to review their progress and offer additional
suggestions. Please let me know if you have any questions or would like additional
information.

cc:      Mary Bomar




                                             3
